Report No. D-2009-084        May 29, 2009




    Controls Over Army Working Capital Fund
              Real Property Assets
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), or fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACSIM                 Assistant Chief of Staff for Installation Management
AMC                   Army Materiel Command
ASA(FM&C)             Assistant Secretary of the Army (Financial Management and
                       Comptroller)
AWCF                  Army Working Capital Fund
DPAS                  Defense Property Accountability System
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
IFS                   Integrated Facilities System
IMCOM                 Installation Management Command
OMB                   Office of Management and Budget
PP&E                  Property, Plant, and Equipment
RPAO                  Real Property Accountable Officer
SFFAS                 Statement of Federal Financial Accounting Standards
UFC                   Unified Facilities Criteria
USACE                 U.S. Army Corps of Engineers
                                 INSPECTOR GENERAL
                                DEPARTME NT OF DEFENSE
                                   400 ARMY NAVY DRI VE
                             ARLI NGTON, VIRG INIA 22202- 4704




                                                                             May 29, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION ,
                 TECHNOLOGY, AND LOGISTICS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJ ECT: Controls Over Army Working Capital Fund Real Property Assets
          (Report No. 0-2009-084)


We are providing this report for your review and comment. We considered management
comments on a draft of this report when preparing the final report.

000 Directive 7650.3 requires that all recommendations be resolved promptly. We
revised Recommendation A.I. to clarify the intent. The comments from the U.S. Army
Corps of Engineers were responsive. However, the comments from the Deputy Under
Secretary of Defense (Installations and Environment) and the Assistant Secretary of the
Army (Financial Management and Comptroller) were only partially responsive and did
not fully present intended corrective actions and completion dates for all
recommendations. Please see the recommendations table on the back of the Results in
Brieffor the specific comments required by June 29, 2009.

Please provide comments that conform to the requirements of 000 Directive 7650.3. If
possible, send management comments in electronic format (Adobe Acrobat file only) to
auddbo@dodi g. mil. Copies of management comments must have the actual signature of
the authorizing official for your organization. We cannot accept the /S igned/ symbol in
place of the actual signature.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).



                                             f~a .!11~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2009-084 (Project No. D2006-D000FI-0249.001)                                 May 29, 2009


               Results in Brief: Controls Over Army
               Working Capital Fund Real Property Assets

                                                                 Develop an effective control
What We Did                                                       environment over Army Working
Our objective was to determine whether the                        Capital Fund real property.
Army Working Capital Fund had controls in                        Develop a training program for all
place to provide reasonable assurance that it                     personnel involved in real property
could properly manage real property assets.                       management.
This report addresses real property acquisition,                 Implement the $20,000 DoD
improvement, disposal controls, and supporting                    capitalization threshold for all real
documentation for real property transactions.                     property placed in service since
                                                                  March 2006.
What We Found                                                    Finalize the Real Property Audit
                                                                  Preparation Handbook.
The Army did not have effective internal
                                                                 Develop necessary system changes
controls in place to ensure that Army Working
                                                                  within the Integrated Facilities System.
Capital Fund installations managed their real
                                                                 Complete the validation of real
property assets effectively and efficiently,
                                                                  property assets and implement the
complied with regulations, and accurately
                                                                  internal controls and business practices
reported assets. The Army Working Capital
                                                                  necessary to sustain the baseline
Fund did not have:
                                                                  achieved.
    an effective control environment that
                                                                 Implement electronic folder
       delineated roles and responsibilities and
                                                                  requirements for all real property
       provided adequate training;
                                                                  assets.
    oversight and monitoring of real
       property acquisition, improvement, and
       disposal;                                         Management Comments and
    effective installation-level control                Our Responses
       activities to classify, value, and report         The Deputy Under Secretary of Defense
       assets correctly; and                             (Installations and Environment) and the
    sufficient documentation to support                 Assistant Secretary of the Army (Financial
       reported real property values.                    Management and Comptroller) agreed with all
                                                         recommendations, but some comments were
What We Recommend                                        only partially responsive. The full text of these
We recommend that the Deputy Under                       comments appears in the Management
Secretary of Defense (Installations and                  Comments section of the report. We request
Environment) enforce policy assigning real               additional comments from the Deputy Under
property accountability responsibility to a single       Secretary of Defense (Installations and
military department at each installation.                Environment) and the Assistant Secretary of the
                                                         Army (Financial Management and Comptroller)
We recommend that the Department of the                  by June 29, 2009. Please see the
Army:                                                    recommendations table on the back of this page.


                                                     i
Report No. D-2009-084 (Project No. D2006-D000FI-0249.001)                         May 29, 2009

Recommendations Table

                                  Recommendations                 No Additional Comments
Management                        Requiring Comment               Required
Deputy Under Secretary of         A.1.
Defense (Installations and
Environment)
Assistant Secretary of the Army   A.4.a., A.4.b., A.4.d.(2),      A.4.c., A.4.d.(1), A.4.d.(3),
(Financial Management and         A.4.d.(4), B.                   A.4.e.
Comptroller)

U.S. Army Assistant Chief of      A.2.b., A.2.c., A.4.a.,         A.2.a., A.3., A.4.c., A.4.d.(1),
Staff for Installation            A.4.b., A.4.d.(2), A.4.d.(4),   A.4.d.(3), A.4.e., A.5.
Management                        B.
U.S. Army Corps of Engineers                                      A.3.



Please provide comments by June 29, 2009.




                                               ii
Table of Contents

Results in Brief                                                             i

Introduction                                                                 1

       Objectives                                                            1
       Background                                                            1
       Review of Internal Controls                                           3
       Management Comments on the Introduction and Our Response              4

Finding A. Effectiveness of Army Real Property Internal Controls             5

       Management Actions                                                   19
       Management Comments on the Finding and Our Response                  21
       Recommendations, Management Comments, and Our Response               22


Finding B. Compliance With Real Property Source Documentation
           Requirements                                                     29

       Recommendations, Management Comments, and Our Response               37

Appendices

       A. Scope and Methodology                                             39
             Prior Coverage                                                 40
       B. Glossary of Terms                                                 42
       C. Real Property Documentation Requirements                          45

Management Comments

       Department of the Army                                               46
       Deputy Under Secretary of Defense (Installations and Environment )   50
       U.S. Army Corps of Engineers                                         54
Introduction
Objectives
Our overall audit objective was to determine whether the Army Working Capital Fund
(AWCF) had controls in place to provide reasonable assurance that it could properly
manage real property assets. This is the second of two reports. The first report addressed
Army implementation of the DoD preponderance of use policy, as well as concerns
regarding system integration between Army real property accountability and accounting
systems. This report addresses controls over the acquisition, improvement, and disposal
of real property assets and the availability of source documentation. We also evaluated
the managers’ internal control program as it related to the audit objectives. See
Appendix A for a discussion of the audit’s scope and methodology and for prior coverage
related to the objectives. Appendix B provides a glossary of terms used throughout the
report.

Background
DoD real property assets include land, buildings and structures, improvements to owned
or leased real property assets, and real property construction-in-progress. The Army
reports real property assets on the AWCF financial statements, as well as on financial
statements for the Army General Fund and U.S. Army Corps of Engineers (USACE),
Civil Works. The Army reports all of its land assets on the General Fund and USACE
financial statements. Table 1 shows the real property acquisition and book values
reported on the FY 2007 AWCF financial statements.

              Table 1. AWCF Real Property as of September 30, 2007
                               Acquisition Value           Book Value
   Asset Class                      (millions)              (millions)*
   Buildings, Structures, and
    Facilities                                  $1,866.7                     $438.7
   Leasehold Improvements                           96.6                       15.0
   Construction-in-Progress                         43.7                       43.7
   Total                                        $2,007.0                     $497.4
   *
       Book value is acquisition value less accumulated depreciation on the asset.

The book value of AWCF real property decreased from $497.4 million in FY 2007 to
$482.7 million as of September 30, 2008.

Roles and Responsibilities
USACE is the proponent agency for real estate, and the Assistant Chief of Staff for
Installation Management (ACSIM) provides overall policy and program management


                                               1
concerning Army installation management. In October 2002, the Army implemented the
“Transformation of Installation Management” initiative and placed installation
management under the Installation Management Agency, an ACSIM field-operating
agency. In October 2006, the Installation Management Command (IMCOM), with six
regional headquarters offices worldwide, assumed the responsibilities of the Installation
Management Agency and the Army’s Community and Family Support Center and
Environmental Center. The IMCOM commander also serves as the ACSIM. The
U.S. Army Materiel Command (AMC) retained command and control over base
operations for its special installations, including the 13 entities 1 reported in the AWCF
financial statements. The Assistant Secretary of the Army (Financial Management and
Comptroller) (ASA[FM&C]) has responsibility for ensuring the accurate financial
reporting of Army assets. The Deputy Under Secretary of Defense (Installations and
Environment) is responsible for all DoD real property matters, including issuing guidance
and procedures for acquiring DoD real property and for proper inventory reporting.

Real Property Guidance
DoD Financial Management Regulation (FMR), volume 4, “Accounting Policy and
Procedures,” chapter 6, “Property, Plant, and Equipment (PP&E),” July 2006, 2 contains
the DoD accounting standards and policy for capitalizing, depreciating, and financial
reporting of real property assets. The regulation requires DoD entities to capitalize real
property assets that meet the DoD capitalization threshold and any improvements to
capital assets that improve the asset’s capability, size, efficiency, or useful life. In
March 2006, the Principal Deputy Under Secretary of Defense (Comptroller) lowered the
real property capitalization threshold from $100,000 to $20,000. The FMR also identifies
the source documents required to support real property financial transactions. See
Appendix C for additional information on real property documentation requirements.

In 2003, DoD launched an initiative to improve the reliability, accuracy, and timeliness of
its real property information and inventory reporting systems. A DoD real property
working group, comprised of representatives from the DoD Components and the Deputy
Under Secretary of Defense (Installations and Environment), conducted a real property
business process reengineering study. As a result, DoD issued three documents that
recommend standardized processes, business rules, and data standards for real property.
The documents address accounting for construction-in-progress costs,
real property acceptance into the DoD inventory, and real property inventory




1
  The 13 entities reported in the AWCF financial statements include 2 activities that are Navy installation
tenants. Within this report, we refer to them collectively as AWCF installations.
2
  Revisions to FMR volume 4, chapter 6, issued in October 2008, incorporated policy in the Office of the
Under Secretary of Defense (Comptroller) memorandum of October 16, 2008, titled “Policy Change for
Real Property Financial Reporting.” The new policy, effective in FY 2011, is intended to align DoD
reporting with Statement of Federal Financial Accounting Standards No. 4, which requires reporting
entities to measure and report the full cost of producing their outputs in financial reports. Otherwise, the
FMR guidance has not significantly changed for capitalizing, depreciating, documenting, and accounting
for real property.


                                                      2
requirements. DoD incorporated the standard data element requirements in the Business
Enterprise Architecture. In accordance with the Enterprise Transition Plan, the Army
plans to achieve compliance for its systems in 2009. 3

Unified Facilities Criteria (UFC) 1-300-08, “Criteria for Transfer and Acceptance of
Military Real Property,” June 30, 2004, 4 establishes a process for consistently and
accurately transferring and accepting DoD real property accountability and financial
costs. UFC 1-300-08 does the following:

             contains procedures to ensure the posting of newly constructed and
              transferred facilities and their costs into the real property database;

             tells users how to document acquisitions, improvements, transfers, changes,
              and disposals using DD Form 1354, “Transfer and Acceptance of Military
              Real Property;” and

             assigns responsibilities to the facility owners, construction agents, and
              installation customers.

Review of Internal Controls
We identified material internal control weaknesses for the Army as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. We reviewed the roles and responsibilities of accountability and
financial management personnel; internal controls over the real property physical
inventory process; how installations recorded acquisition, improvement, and disposal
transactions; and source documentation compliance and retention. We determined that
the Army did not properly segregate duties between real property accountability and
financial management responsibilities. The Army also did not maintain controls to
ensure that installations conducted proper inventories and recorded real property
acquisition, improvement, and disposal transactions accurately and in a timely manner.
Furthermore, the Army did not have sufficient internal controls in place to ensure that
installations retained required source documentation to support the acquisition cost of
real property assets reported in the AWCF financial statements. The recommendations in
Findings A and B, when implemented, will improve the Army’s capability to provide
appropriate real property accountability and accurate financial reporting. We will
provide a copy of the final report to the Army senior official responsible for internal
controls.


3
  Real property accountability was identified as one of six strategic Defense Business Enterprise Priority
areas, as part of the long-term DoD business transformation effort. The Business Enterprise Architecture
provides part of the structure for the DoD business transformation, and it incorporates activities, data
standards, and business rules and policies at a DoD enterprise level.
4
  UFC 1-300-08, June 30, 2004, was in effect during this audit. On March 26, 2009, DoD updated the
guidance to incorporate the requirements in the Real Property Acceptance Requirements document and the
Construction-in-Progress Requirements document. The 2009 update also reflects the applicable data
element names and business rules included in the Real Property Information Model, version 3.0.


                                                    3
Management Comments on the Introduction and Our
Response
Deputy Under Secretary of Defense (Installations and
Environment) Comments
The Deputy Under Secretary of Defense (Installations and Environment) provided
comments on the real property guidance referenced in the Introduction. He stated that we
did not accurately reflect their progress with implementing inventory requirements. He
also stated that DoD was updating the Unified Facilities Criteria guidance. For complete
comments, see the Management Comments section.

Our Response
We revised the Introduction to clarify DoD progress with implementing inventory
requirements. We also added a footnote to recognize that DoD updated UFC 1-300-08 in
March 2009.




                                           4
Finding A. Effectiveness of Army Real
Property Internal Controls
The Army has not implemented an effective internal control structure over its AWCF real
property assets. Specifically, the Army did not develop the control environment needed to
assist AWCF installations and real property personnel in assessing risk, implementing
control activities, and monitoring internal control compliance. As a result, the Army could
not ensure Integrated Facilities System (IFS) data reliability, real property asset existence,
or the completeness of its inventory records. Army officials responsible for developing and
enforcing guidance and managing the real property financial reporting process need to:

        develop an effective AWCF real property control environment;

        establish sufficient controls to ensure that Real Property Accountable Officers
         (RPAOs) maintain physical control over real property assets;

        provide complete information in response to Office of Management and Budget
         (OMB) Circular No. A-123, Appendix A;

        develop the necessary changes within IFS and the General Fund Enterprise
         Business System to ensure effective real property data control; and

        finalize the Real Property Audit Preparation Handbook.

The Deputy Under Secretary of Defense (Installations and Environment) should enforce
policy assigning real property accountability responsibility to a single Military Department
at each installation.

Internal Control Standards
OMB Circular No. A-123, “Management’s Responsibility for Internal Control,” December
21, 2004, and Government Accountability Office (GAO) “Standards for Internal Control in
the Federal Government,” (GAO/AIMD-00-21.3.1, November 1999), identify standards for
achieving proper internal control. The circular provides Federal managers with guidance to
ensure that entities establish effective internal control that meets GAO standards.
Management must comply with OMB Circular No. A-123, Appendix A, “Internal Control
over Financial Reporting,” requirements when assessing internal control effectiveness over
financial reporting.

GAO/AIMD-00-21.3.1 provides the Federal Government with standards for establishing
and maintaining internal control. Government organizations should develop an internal
control structure that provides reasonable assurance that management can maintain




                                              5
effective and efficient operations, reliable financial reporting, and compliance with laws
and regulations. GAO identifies the following five standards as important for effective
internal control:

      control environment,
      risk assessment,
      control activities,
      information and communications, and
      monitoring.

These standards provide the general framework for management to implement efficient
internal control policies, procedures, and practices. GAO/AIMD-00-21.3.1 states that a
positive control environment should provide the discipline and structure an organization
needs to influence the quality of its internal control structure and policies.

Control Environment
Army managers did not establish and maintain an effective control environment for AWCF
real property assets. Army managers did not establish the appropriate roles and
responsibilities needed to manage real property assets or appropriately delegate these roles
to the Army installation personnel responsible for safeguarding and financial reporting of
these assets. The division of responsibilities among ACSIM, IMCOM, and AMC resulted
in confusion and inconsistent implementation of DoD and Army real property policies. The
three Army commands designed and applied control activities differently, did not assign the
appropriate installation personnel to perform real property accountability responsibilities,
and did not ensure that real property personnel had the needed skills and training to perform
real property accountability functions.

Real Property Control Environment
Internal control standards require that organizations achieve the level of competence needed
to effectively safeguard, record, and financially report real property assets. Although
ACSIM personnel demonstrated a commitment to establishing an effective Army real
property management program, they did not ensure that Army installations had achieved
and could maintain the appropriate level of consistency, accuracy, and regulatory
compliance needed to manage real property assets properly.

ACSIM has worked with the DoD real property community to reengineer DoD real
property procedures by standardizing practices, business rules, and data elements. Based
on these efforts, DoD issued three requirement documents in 2005 and 2006 that provided
detailed guidance on real property acceptance and inventory requirements, assigning unique
property identification numbers, and recording construction-in-progress costs. In FY 2007,
ACSIM expected all Army installations to implement the requirements and guidance.
However, ACSIM did not have the needed management authority to direct AMC to monitor
AWCF installations to ensure compliance with the real property requirements.




                                              6
ACSIM managers also did not have the authority to ensure that AWCF installation
commanders appointed the appropriate personnel who could devote the time required to
maintain and ensure the accuracy of IFS property records and serve as RPAOs. At three of
the five Army installations we visited, installation commanders appointed a Directorate of
Public Works division manager as the RPAO. However, the division managers had only
limited time to perform real property management responsibilities because they often
performed higher-priority management duties. At the other two AWCF installations we
visited, one RPAO was a Resource Management supervisor, and the other was a Public
Works employee. The Rock Island Arsenal, Illinois, and Tobyhanna Army Depot,
Pennsylvania, RPAOs did not have IFS access. Consequently, they could not examine IFS
to ensure the accuracy and completeness of real property accountability records. At these
installations, a real property specialist was the individual who had IFS access and actually
performed the RPAO tasks, including accepting assets and maintaining IFS records and
supporting files. ACSIM managers need to work with AMC to ensure that installation
commanders appoint RPAOs who can dedicate the time and resources needed to manage
real property assets effectively.

IMCOM also did not have the authority to ensure that AWCF installations provided RPAOs
and real property specialists with the appropriate developmental training and continuing
professional education they needed. The RPAOs and real property specialists we
interviewed stated that they had not received sufficient training to fully understand and
implement DoD and Army real property regulations or to use IFS correctly. Although
ACSIM scheduled annual training through the Installation Management Institute, we
determined that neither IMCOM nor AMC required that RPAOs attend this training before
their assignment to the position or within one year of assuming their responsibilities. The
Army did not schedule enough sessions of the real property and real estate courses at the
Installation Management Institute to enable all the RPAOs and realty specialists that needed
training to attend. In addition, ACSIM did not require that all personnel involved in real
property management participate in a formal training program. ACSIM, in coordination
with USACE (the proponent agency for real estate), should develop a training program for
all personnel involved in real property management. The training program should include
mandatory basic training within the first year of assignment and continuing professional
education, through the Installation Management Institute, to maintain overall competence
for managing real property.

Responsibility for Managing Army Real Property
The Army took appropriate steps to centralize real property management under IMCOM.
However, the Army allowed AMC to retain overall management for 30 installations
supporting the AWCF and other specialized programs without establishing a Memorandum
of Agreement between the two Army commands that defined each command’s roles and
responsibilities. IMCOM regions had not maintained consistent and ongoing oversight of
the five AMC installations we visited, including their real property inventory records.
IMCOM managers acknowledged that they did not regularly visit AWCF installations to
spot-check inventory records for accuracy and regulatory compliance. They also stated that
they did not oversee the annual physical inventory process unless the AWCF installations
specifically asked for assistance. However, RPAOs at the five AWCF installations stated


                                             7
that they used IMCOM resources to resolve real property issues. They also stated that
AMC did not have an active role in managing installation real property assets.

AMC managers confirmed that they were not actively involved in providing AWCF
installations with guidance or monitoring compliance with real property reporting
requirements. AMC and IMCOM managers have acknowledged that this divided
responsibility reduced AWCF real property management effectiveness. They also stated
that they needed to define their respective responsibilities more clearly and establish an
appropriate AWCF installation reporting procedure. However, they found that their
staffing levels were inadequate to provide the level of support that was necessary to
maintain effective real property management at all installations. Both AMC and IMCOM
reported significant reductions in their resources following the transfer of real property
management to IMCOM. In March 2007, ACSIM discussed the development of a
memorandum of agreement between the two Army commands that would specifically
address authorities and delegate responsibilities. However, as of July 2008, AMC and
IMCOM still had not established a memorandum of agreement.

To ensure that an effective control environment exists, it is important that the Army define
the roles and responsibilities for each command. The most effective and efficient control
environment would require a single Army command to assume full responsibility for
managing all real property assets. Assigning IMCOM the responsibility for managing real
property assets at the remaining AWCF installations would help achieve this control
environment. ACSIM needs to reassess AWCF real property management responsibilities
and either transfer the responsibilities to IMCOM or develop a memorandum of agreement
between AMC and IMCOM that details each command’s roles and responsibilities. The
Army should also provide the necessary staffing and training resources needed to
effectively implement those roles and responsibilities.

Risk Assessment
Army real property managers did not perform sufficiently detailed risk assessments to
identify and analyze risks associated with achieving their real property accountability and
financial reporting management objectives. GAO/AIMD-00-21.3.1 states that management
should assess internal and external risks, analyze the risks for possible effects, develop a
risk management approach, and determine the control activities needed to mitigate the risks.
The DoD implementation guidance for OMB Circular A-123, Appendix A, requires that
managers assert 5 whether internal controls over financial reporting provide reasonable
assurance that real property assets are properly valued and safeguarded against fraud and
abuse.

Army managers did not implement all OMB Circular A-123, Appendix A, requirements for
assessing and documenting the real property financial reporting process. The ACSIM
FY 2006 Annual Statement of Assurance stated that ACSIM had reasonable assurance that
effective internal controls were in place throughout ACSIM and its field agencies. ACSIM


5
    For a definition of this and other technical terms, see Appendix B.


                                                         8
reported that, based on installation inventory results, it had reasonable assurance that real
property controls met the objectives of OMB Circular A-123, Appendix A. ACSIM also
acknowledged that DoD had reported its real property infrastructure as a DoD material
weakness. Even though the ACSIM FY 2006 Annual Statement of Assurance did not
identify real property financial reporting as a material weakness, the Army continued to
report a material weakness in General PP&E in the Army FY 2006 Annual Statement of
Assurance. The material weakness was first identified in FY 1999 through Army internal
reviews and audits. We determined that ACSIM had performed only limited work to
document the actual Army real property financial transaction flow and assess internal
control effectiveness.

In FY 2008, the Army certified to the Office of the Under Secretary of Defense
(Comptroller) that it had evaluated real property financial reporting and completed
Deliverables A and B in compliance with OMB Circular No. A-123, Appendix A. 6 We
determined that the real property process narratives and flow charts submitted did not
portray the FY 2008 environment for AWCF real property financial reporting and
accountability adequately or accurately. For instance, the narratives and flowcharts in
Deliverable A:

       did not identify how the data flowed from IFS to the Logistics Modernization
        Program system at Tobyhanna Army Depot, Pennsylvania;

       inaccurately stated that AWCF installations sent all real property transactions from
        IFS to the Defense Property Accountability System (Crane Army Ammunition
        Activity, Indiana, did not follow this practice); and

       erroneously described how installations received AWCF construction-in-progress
        costs from USACE and recorded general ledger transactions.

In addition, the narratives and flowcharts did not identify controls associated with the
physical inventory and disposal processes. Further, Deliverable B did not identify the
internal controls needed to mitigate risks for 12 of 24 risk areas. Without fully
understanding and documenting the transaction flow for each type of real property asset, the
Army could not assess the risks associated with correctly managing its real property assets
and establish the needed controls to mitigate the risks. The Army must take steps to
implement the requirements of OMB Circular A-123, Appendix A for real property assets,
to include updating the process narratives, flowcharts, and risk analysis forms.




6
  The Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer designated specific areas, such
as real property, for compliance with the reporting requirement in OMB Circular No. A-123, Appendix A. As
part of Deliverable A, DoD Components are to provide process narratives, flow charts, and organizational
charts for these designated areas. Deliverable A also includes DoD Component-level control environment
documents, such as ethics training, and the Senior Assessment Team membership and charter. Deliverable B
requires a risk analysis form for the designated areas, a Federal Information Security Management Act report
(if applicable), and a list of auditor-identified material weaknesses related to financial reporting.


                                                     9
Control Activities
AWCF installations did not establish sufficient control activities to ensure compliance with
real property accountability and financial reporting requirements. GAO/AIMD-00-21.3.1
describes control activities as those policies, procedures, techniques, and mechanisms
management can use to enforce compliance with laws and regulations.
GAO/AIMD-00-21.3.1 identifies a wide range of control activities that an entity should
implement at all levels in either a manual or a computerized environment. Our
observations at five AWCF installations revealed that the Army should improve controls to
ensure proper:

        physical control over assets,
        recording of transactions and events, and
        segregation of duties. 7

Physical Control
AWCF installations did not establish sufficient controls to ensure that RPAOs had
maintained adequate physical control over real property assets. Inadequate physical
inventory procedures prevented the RPAOs from verifying the physical existence of each
asset and led to inaccurate real property reporting within IFS and in the financial
statements. In addition, by not assigning real property accountability to a single RPAO at
each installation, DoD increased the risk that DoD Components would misreport real
property assets in their financial statements.

Physical Inventory Requirements
The FMR, volume 4, chapter 6, June 2006, states that DoD Components must conduct
periodic and independent real property inventories that verify both the IFS record
completeness and the physical existence of each asset. Based on DoD and Army regulatory
guidance, the AWCF installations should have inventoried all real property assets at least
once every 5 years. 8 The FMR did not direct the installations to inventory 100 percent of
the assets at the same time; therefore, an installation could inventory a portion of its real
property assets each year using a schedule that ensured a 100-percent asset inventory at
least every 5 years. The FMR also requires DoD Components to reconcile the inventory
results with the subsidiary property records and corresponding general ledger accounts as
part of the physical inventory process.

In May 2003, ACSIM also issued supplemental guidance to all Army installation
commanders directing them to conduct a periodic real property inventory and submit an



7
  In DoD Inspector General Report No. D-2008-072, “Controls Over Army Real Property Financial
Reporting,” March 28, 2008, we also identified problems with the subsidiary ledger file supporting Army real
property transactions and the reliability of acquisition costs.
8
  A June 2008 revision to FMR, volume 4, chapter 6, states that DoD Components must perform periodic
physical inventories in accordance with DoD Instruction 4165.14, “Real Property Inventory and Forecasting,”
for real property. DoD Instruction 4165.14 requires a physical inventory of real property not less than every 5
years, and of historic assets every 3 years.


                                                      10
annual memorandum describing inventory results and any significant adjustments. The
ACSIM guidance required installations to verify the existence of all assets recorded in IFS
and ensure that the RPAO had recorded each acquisition and asset improvement completed
during the fiscal year in IFS. The guidance specified 13 IFS data elements that each entity
needed to verify for accuracy during the inventory process.

Although the RPAOs at the five AWCF installations we visited were generally aware of the
physical inventory requirements, they did not have a good understanding of how to conduct
a physical inventory. Two RPAOs did not conduct physical inventories in FY 2007.
Instead, they used the data reported on Installation Status Reports to develop their annual
memorandum. These reports contained assessments of building conditions that the
assigned occupants prepared, but there was insufficient data to verify the accuracy of
physical inventory requirements. Two other RPAOs inventoried a percentage of their
assets annually, but confirmed that they did not follow DoD and ACSIM guidance during
the inventory process to ensure the inventory of all installation assets within 5 years. The
fifth RPAO reported that he followed ACSIM guidance for annual physical inventories, but
he did not maintain any documentation showing what data he verified, the inventory results,
or any corrective actions taken. None of the five RPAOs reconciled the results of their
physical inventories to the IFS data and financial records. Because IMCOM regions did not
effectively monitor the implementation of inventory procedures, they were unaware that
RPAOs were not always performing complete physical inventories, reconciling the results
of physical inventories with IFS and financial records, or maintaining sufficient
documentation. (See Finding B for additional details regarding problems with maintaining
sufficient documentation to support real property transactions.)

Existence and Completeness Testing
At the five AWCF installations we visited, we conducted a physical inventory to test the
accuracy and completeness of IFS records and to evaluate the effectiveness of real property
inventory procedures. As of September 30, 2006, IFS reported 4,908 real property assets
with an acquisition value of $561.1 million. We judgmentally selected 415 of these assets
to verify whether each asset physically existed on the installation (“book-to-floor” test) and
whether the RPAO had accurately recorded the asset in IFS.

We completed physical inventories at the five AWCF installations between October 2006
and February 2007. To test for IFS record completeness (“floor-to-book” test), we
judgmentally selected an additional 72 buildings and structures observed during our
physical inventory and determined whether the RPAO had recorded these assets in IFS
correctly. We inventoried all property records at Rock Island Arsenal and took a
judgmental sample of property records at the other four installations. To determine the
accuracy of the IFS records as of September 30, 2006, we reconciled the September 2006
data with the physical inventory results as of the date of our site visit. We took into
consideration acquisitions, improvements, and disposals that occurred between
September 30, 2006, and the date of our visit to each installation. Table 2 shows our
physical inventory results at each installation.




                                              11
                  Table 2. Results of AWCF Physical Inventory Testing

                          Assets
                       Reviewed for         Existence         Assets Reviewed           Completeness
Installation            Existence            Errors          for Completeness             Errors
Anniston Army
                                    10                  0                      12                       3
Depot
Corpus Christi
                                    96                  0                      31                      31
Army Depot
Crane Army
Ammunition                           7                  0                       3                       1
Activity
Rock Island
                                   252                  1                      16                      16
Arsenal
Tobyhanna Army
                                    50                  9                      10                       1
Depot
Total                              415                10                       72                      52

Our testing confirmed that IMCOM and the AWCF installations did not have adequate
control activities in place to ensure physical control over real property assets and the
accuracy of IFS records. We determined that 10 of the 415 assets reviewed either no longer
existed on the installations or, in the case of linear assets such as utility lines, did not exist
in the length recorded in IFS. We also determined that the five RPAOs had not recorded 52
of the additional 72 buildings and structures that we observed during our physical
inventories in IFS. The RPAOs had not updated IFS when they placed assets in service,
took assets out of service, or made improvements to existing assets. In addition, the five
RPAOs did not maintain documentation to support changes they made to IFS records
because of physical inventories. Specifically, they did not have documentation to support
the source and validity of changes they made to IFS data, such as asset cost, size, and age,
or the effective dates of transactions. (See Finding B for further discussion of
documentation requirements.)

Multiple Real Property Accountable Officers
AWCF property managers located on military installations operated by another Military
Department did not always reconcile their physical inventory results with the host entity’s
records to prevent duplicate reporting or the omission of assets from the DoD inventory. At
Crane Army Ammunition Activity, Indiana, and Corpus Christi Army Depot, Texas, the
Army and Navy had each appointed an RPAO to account for and inventory their respective
Military Department’s real property assets. This duplicate effort did not result in accurate
records because the Army and Navy did not reconcile their respective inventory records
with each other’s. Our review identified the following errors.




                                               12
       Army operations at Corpus Christi Army Depot predominantly used 22 facilities
        reported in both Army and Navy accountability systems. Both Military
        Departments financially reported 1 of the 22 facilities in their accounting systems.
       Both the Army and Navy financially reported 19 facilities, valued at $2 million, that
        the Crane Army Ammunition Activity predominantly used.

The Deputy Under Secretary of Defense (Installations and Environment) recognized the
need to transition its real property management to a joint basing concept in its 2007
Defense Installations Strategic Plan. As part of this effort, DoD should enforce its policy of
having a single RPAO on each installation with responsibility for real property asset
accountability. DoD Instruction 4165.14, “Real Property Inventory and Forecasting,”
March 31, 2006, requires a single Military Department to be responsible for real property
accountability at each DoD installation and the appointment of one RPAO at the
installation. Once DoD assigns a single accountable official, tenant organizations will no
longer need to perform RPAO functions. However, the host and tenant financial managers
must still assist the assigned RPAO to determine which Military Department should
financially report each asset and ensure that it is recorded in the appropriate general ledger
and financial statements.

Recording Real Property Transactions and Events
The Army did not have proper control activities to help ensure that AWCF installations
recorded real property transactions and events completely, accurately, and timely in both
the property accountability and financial systems. Throughout FY 2006, IFS did not
distinguish between the Army real property asset transactions needed to establish and
maintain capitalization records and the transactions needed to maintain accountability. In
addition, the Army had not implemented the DoD capitalization threshold or ensured that
installations accurately recorded real property financial transactions. Internal control
weaknesses resulted in errors classifying, processing, and recording AWCF real property
assets.

Establishing IFS Capitalization Records
The Army designed IFS to create capitalization records for all real property transactions
entered into the system. However, to provide accurate real property financial reporting, IFS
must have the ability to distinguish between the transactions that meet DoD capitalization
criteria and require a capitalization record and the ones that require only an accountability
record. 9 Through FY 2006, every new IFS transaction received either a capitalization
account type code of “A” (new facility) or “I” (improvement). At four installations, we
reviewed 92 judgmentally selected IFS transactions recorded between October 1, 2001, and
September 30, 2006, with a capitalization account type code of “A” or “I.” We determined
that 42 of the 92 transactions were neither a new asset requiring capitalization nor a capital
improvement to an existing real property asset. Because IFS did not provide any other


9
 IFS should have an accountability record for any asset that meets the DoD accountability threshold of $5,000
or that requires accountability for other management-directed reasons. However, the Army should not have
created capitalization records for real property transactions that did not meet the $20,000 capitalization
threshold. They should have been expensed.


                                                     13
transaction type code options, real property specialists used the “A” designation to establish
records for all new acquisitions of real property assets, regardless of whether they required
capitalization. Real property specialists used the “I” designation to enter all other
transactions, including administrative changes such as error corrections and changes to
nonfinancial data fields. In FY 2007, ACSIM implemented an IFS change that added an
“ADM” transaction for administrative adjustments to existing records. IFS should develop
other transaction codes to establish records for real property assets that do not meet the
capitalization threshold but require accountability.

Implementation of DoD Capitalization Threshold
Army managers have not implemented the DoD capitalization threshold for all new real
property acquisitions and improvements placed in service after March 2006. In
March 2006, the Principal Deputy Under Secretary of Defense (Comptroller) lowered the
real property capitalization threshold from $100,000 to $20,000. However, the Office of
the Under Secretary of Defense (Comptroller) allowed the Military Departments until
March 31, 2008 to reconcile their real property holdings with reported values and determine
whether a different DoD capitalization threshold was more appropriate. Also in
March 2006, ACSIM issued guidance instructing all installations to start gathering the
necessary supporting documentation for all real property acquisitions and improvements
meeting the new DoD capitalization threshold. However, that same month the Deputy
Assistant Secretary of the Army (Financial Operations) notified ACSIM that the Army
would not lower its capitalization threshold until the Army reconciled real property
holdings and expenditures. As a result, ACSIM postponed lowering the capitalization
threshold.

Contrary to ACSIM guidance, AWCF installations did not capture sufficient documentation
to support the capitalization of real property assets placed in service since March 2006. We
found that real property files did not contain sufficient documentation to support the
capitalization of four of five real property acquisition and improvement transactions
recorded since March 2006. This will make it more difficult for the Army to comply with
the DoD policy and establish supportable account balances for Army real property. In
Finding B, we discuss the actions that ACSIM should take to address the problems the
Army had collecting and maintaining source documents and establishing supportable
account balances. Unless the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer grants the Army approval to delay implementation, the ASA(FM&C)
should immediately implement the DoD capitalization threshold for all real property assets
and capital improvements valued at $20,000 or more that the Army has placed in service
since March 2006.

Real Property Transaction Accuracy
AWCF installations classified, valued, and recorded real property transactions incorrectly.
At the five AWCF installations visited, we randomly selected acquisition, improvement,
and disposal transactions recorded in IFS from October 1, 2001, through September 30,
2006. We examined IFS records and source documentation supporting the transactions to
determine whether the installations recorded the assets accurately. Here are examples of
the types of errors we found.


                                             14
   Tobyhanna Army Depot erroneously expensed the cost of a new security booth and
    swing-gate system that it should have capitalized as a new asset. Installations must
    correctly identify real property construction as either a new construction (which
    results in a capital asset), an improvement to an existing asset, or an expense.
    Beginning in March 2005, Tobyhanna Army Depot removed a small guard building
    and gate, cleared the site, and constructed a new, larger security booth and swing-
    gate system costing $495,000. The RPAO should have recorded the acquisition of a
    new asset in IFS. Instead, Tobyhanna Army Depot incorrectly recorded the
    construction as repair-and-maintenance expenses.

   Corpus Christi Army Depot misclassified the 96 buildings and other structures it
    occupied as a tenant as leasehold improvements. The Navy had correctly
    outgranted the buildings and structures to Corpus Christi Army Depot and did not
    report them on the Navy financial statements. The Host-Tenant Real Estate
    Agreements between the Army and Navy at Corpus Christi Army Depot did not
    meet the standards for a lease, as described in Statement of Federal Financial
    Accounting Standards No. 6, “Accounting for Leases,” November 1976. Therefore,
    Corpus Christi Army Depot did not have a lease with the Navy and should have
    reported the buildings and other structures ($95 million in acquisition cost and
    $16 million in book value) as capitalized real property assets on the AWCF
    financial statements. Instead, Corpus Christi Army Depot erroneously reported the
    buildings and other structures as leasehold improvements. In addition, Depot
    personnel depreciated all these assets using a 20-year useful life, including
    29 buildings they should have depreciated over 40 years. As a result, Corpus Christi
    Army Depot had overstated depreciation expenses and understated the book value
    of these 29 buildings by $9.9 million in the FY 2007 AWCF Financial Statements.

    The following figure shows one of the facilities incorrectly recorded as a leasehold
    improvement.




         Corpus Christi Building Reported as Leasehold Improvement

       Rock Island Arsenal did not adjust IFS records for the partial removal or
        disposal of real property assets. The RPAO did not reduce the assets’ recorded
        value and size when they were partially demolished during the construction of a



                                         15
              new asset on the same site. The RPAO and realty specialist stated that they did
              not know the correct procedure or thought they could not reduce the cost of
              assets when only a partial removal or disposal had occurred. As a result, the
              Army overstated the total value of AWCF real property in accountability and
              financial records by the book value of the disposed assets.

Real Property Transaction Timeliness
Controls were not in place to ensure that AWCF installations recorded real property
accountability and financial transactions in a timely manner. UFC 1-300-08 requires the
Army to use DD Form 1354 to document real property acquisitions and improvements.
The project construction agent should prepare and sign the DD Form 1354 and provide it to
the RPAO when a facility is substantially complete and available for use. UFC 1-300-08
also required the preparer to sign the DD Form 1354 within 10 days of the effective date
printed on the form and before building occupancy. 10 In addition, the RPAO should sign
the form and record an IFS transaction within 10 days of acceptance.

At the five installations we visited, we judgmentally selected 67 IFS transactions that
occurred from October 1, 2002, through September 30, 2006, to determine whether the
RPAOs accepted the asset and recorded an IFS transaction within 10 days of the date the
real property asset was available for use. We found that RPAOs at three of the installations
recorded only 36 of 67 IFS acquisition and improvement transactions within 10 days of
acceptance. The installation RPAOs recorded the remaining 31 transactions between
2 years before and 3 years after the acceptance date on the DD Form 1354.

For example, the RPAO at Rock Island Arsenal, Illinois, experienced delays of up to
3 years in receiving a signed DD Form 1354 from the construction agent. In addition,
construction agents did not routinely provide the effective date needed to establish the
placed-in-service date on the DD Form 1354. They also could not provide documentation
supporting property disposals or explain delays in completing the disposal documents that
caused RPAOs to make IFS updates up to 10 years late. ASA(FM&C) should work with
ACSIM to establish controls that ensure that AWCF installations record real property
accountability and financial transactions within 10 days of acceptance.

Segregation of Duties
AWCF installations did not segregate duties and responsibilities related to the
accountability and financial reporting of real property assets. To reduce the risk of error or
fraud, installations should have divided the responsibilities for establishing asset
accountability, determining whether real property transactions require capitalization, and
placing assets in service among different people. No one individual should control all
aspects of any real property transaction or event. At the five AWCF installations we
visited, the RPAOs and real property specialists assigned to the Directorate of Public Works
had complete control over all aspects of IFS real property transactions. In addition, there


10
  The effective date is the earlier of beneficial occupancy date or the date the asset is available for use. The
effective date is the date from which depreciation begins.


                                                        16
were no compensating procedural or IFS system controls in place to ensure that another
person reviewed and approved transactions initiated by RPAOs and real property
specialists. To ensure data accuracy and maintain proper segregation of duties, recording
real property assets at AWCF installations should involve a coordinated effort between
personnel within the Directorate of Public Works and the Directorate of Resource
Management.

Establishing System Controls
AWCF installations did not have adequate controls in place to ensure that only personnel
acting within the scope of their authority authorized and executed real property
transactions. Effective controls should ensure that Army installations initiate and record
only valid IFS transactions. The Army designed IFS with specific security roles that
segregated duties among installation personnel, permitting each user to execute only those
transactions that fell within that user’s level of authority. However, the IFS system
administrator at the AWCF installations we visited did not enforce the use of these security
roles to manage real property transactions.

Within IFS, each defined user role gave the user “Read Only,” “Read/Write,” or “Write
Only” access to assigned IFS screens. However, if the IFS system administrator failed to
assign a security role to an employee, IFS would set a default role allowing “Read/Write”
access to all screens. At the five AWCF installations we visited, 89 of 191 IFS users did
not have defined security roles. As a result, they had the ability to add, change, and delete
data. In addition, installation system administrators did not regularly review the list of
authorized IFS users and identify which users’ access should be modified or revoked.
Failing to establish and monitor security roles allowed the AWCF installations to
circumvent the IFS system controls designed to ensure proper execution of transactions and
segregation of duties. As a result, individuals had access to IFS transactions outside the
scope of their responsibilities. ACSIM should modify IFS controls to require that
installation system administrators assign a security role to each IFS user and ensure that any
default or locally developed roles only provide “Read Only” access to IFS.

Segregating Duties
At the five AWCF installations we visited, real property personnel recorded and changed
IFS data without another individual providing direct review and approval in IFS. We found
that ACSIM had not implemented an available IFS system functionality that required a
second person to review and approve IFS transactions before they became effective.
RPAOs or real property specialists also recorded all IFS financial data, such as the cost,
classification, and useful life of real property assets, and decided which acquisition and
improvement transactions met the capitalization criteria. With the exception of Crane
Army Ammunition Activity, where the RPAO was a resource management employee,
resource managers responsible for recording AWCF transactions did not have IFS access to
verify the accuracy of the financial data entered. Resource managers reviewed changes to
real property asset records only after a Defense Property Accountability System (DPAS)
interface updated the accounting systems. Because resource management personnel did not
directly update the IFS financial data and none of the five installation resource managers



                                             17
reconciled IFS real property data with information in DPAS and the accounting systems,
they could not determine whether missing and incorrect real property data existed in the
accounting systems.

Accounting systems should be able to update financial data reliably in the accountability
records. The Army needs to design appropriate system integration that permits the
accounting system to update financial data in the accountability records. Until then, the
Army must maintain the proper segregation of duties between real property personnel and
resource management personnel. Only real property personnel should be able to create and
update IFS property accountability data, and only financial management personnel should
be able to create and update IFS financial data. In addition, because the AWCF and
USACE accounting systems did not send accurate and reliable construction cost
information directly to IFS, resource managers need to ensure that they accurately record
financial data in IFS, including information about the capitalization and depreciation of real
property assets. When real property personnel make incorrect capitalization decisions or do
not record the correct financial data, IFS passes incorrect data to the AWCF accounting
systems, causing inaccurate financial statement information.

Control Monitoring
Army management did not adequately evaluate the effectiveness of internal controls over
real property at AWCF installations. Although AMC issued annual guidelines for
completing the evaluations to support its annual statement of assurance, the evaluations
completed by AWCF installations did not effectively cover all aspects of real property
accountability and financial reporting. At the five AWCF installations we visited,
administrators of the Managers’ Internal Control Program ensured that installation
managers completed the internal control checklists. The AMC guidance required
installations to complete specific real property checklists required in DoD and Army
regulations that specified the minimum control steps that installations should test. In
addition, AMC encouraged installations to supplement the checklists with locally
developed tests. However, we determined that only one installation had supplemented its
evaluations with additional tests. In addition, the five AWCF installations did not evaluate
the same functions consistently. For example, Tobyhanna Army Depot developed a
checklist for testing the real property disposal process, but Anniston Army Depot had not
evaluated the disposal process.

Overall, the required internal control checklists did not adequately cover all real property
processes, including the acquisition, improvement, leasing, outgranting, and disposal of real
property assets. Either AMC or IMCOM should have supplemented the required checklists
with other standardized internal control testing, such as the checklist in the Supplement
Policy to Army Pamphlet 405-45, Appendix A, “Management Control Policy – Installation
Real Property Management.” That checklist addressed internal control over the acquisition,
improvement, and disposal of real property assets, as well as the physical inventory process
and property accountability maintenance. The AWCF installations were unaware of this
checklist, and neither IMCOM nor AMC had required its use.




                                             18
In addition, the managers at the five AWCF installations did not incorporate sufficient
monitoring activities, such as supervisory comparisons and reconciliations, as part of their
regular duties. Internal control monitoring should assess the quality of performance over
time, using both ongoing monitoring activities, such as regular self-assessments, and
separate internal control evaluations performed by internal and external audit organizations.
The RPAOs did not perform adequate supervisory reviews of realty specialist activities to
ensure that all transactions were complete and accurate. The RPAOs reviewed and signed
completed DD Forms 1354 when adding, changing, or deleting assets but did not verify that
realty specialists recorded the DD Form 1354 data in IFS correctly.

The RPAOs and other installation managers also did not regularly review the standard IFS
system reports designed to identify input errors, unauthorized transactions, out-of-balance
situations, or missing records. These reports provided information on such things as
variances between IFS and DPAS records and IFS data that had been changed during a
given time period. In addition, although resource managers reviewed reports of variances
between the accounting systems and DPAS, no one compared the data recorded in IFS with
data in the accounting systems

Neither IMCOM nor AMC had other procedures in place to monitor installation compliance
with Army and DoD real property regulations. If they had, they would have identified that
installations were still not performing complete physical inventories and reconciling the
results, receiving and maintaining complete source document files, completing their internal
control evaluations, and recording transactions accurately. Our discussions with personnel
at the five AWCF installations and at two IMCOM regions identified that the IMCOM
regions were not performing periodic staff assistance and evaluation visits to monitor real
property management and provide RPAOs with updated guidance and training. Instead,
IMCOM regional personnel supported the installations primarily through telephone
discussions. IMCOM and AMC management attributed the lack of periodic staff assistance
and evaluation visits to insufficient funding and staffing. The Army needs to develop a
comprehensive Army-wide monitoring program, with necessary staffing resources, that
ensures that Army installations comply with real property laws and regulations and
effectively manage real property assets.

Management Actions
In FY 2008, ACSIM began taking steps to improve controls over the Army real property
assets in order to comply with the Chief Financial Officers Act of 1990. During FY 2008,
ACSIM drafted a Real Property Audit Preparation Handbook that identified the need for
each Army installation to complete a one-time, 100-percent inventory of all real property
assets. ACSIM designed the handbook to assist Army installations with ensuring that IFS
contains accurate information on real property assets, determining the availability of
documentation supporting transactions associated with the assets, and identifying the type
of documentation installations should maintain in asset folders. In November 2007,
ACSIM began performing installation reviews to assist Army real
property personnel in implementing the handbook guidance. By September 2009, ACSIM
plans to complete its reviews of all Army installations, including the AWCF installations.



                                             19
In June 2008, ACSIM provided us with a draft copy of the handbook, dated May 2008, to
review. We concluded that that the handbook was a good start to addressing the
long-standing problems with real property accountability and financial reporting. However,
we identified several areas in which ACSIM should improve the guidance in the handbook.
For example, direct, full-time involvement of installation resource management personnel is
needed to reconcile physical inventory results between IFS and the accounting system
properly, but the handbook does not require this. The handbook also does not provide the
detailed Army-wide control steps and testing measures that installations must implement to
comply with OMB Circular A-123, Appendix A. In addition, the handbook does not
require Army installations to implement the future DoD control environment that is part of
the long-term Defense Business Transformation effort.

ACSIM should work with IMCOM and AMC to ensure that Army installations consistently
implement the procedures in the handbook and effectively measure the actions taken for
addressing the internal control weaknesses identified in this report. It is important that the
Army ensure that installations record assets correctly in both the accountability system and
in financial records. In implementing the handbook guidance, the Army needs to take into
account efforts already underway within the DoD Business Enterprise Architecture to
record assets using the Real Property Unique Identifier and capture the information needed
to quickly and accurately change from the preponderance-of-use policy to an imputed
costing methodology for assigning costs to real property users. 11 Successful
implementation of this handbook will require close cooperation between ACSIM and
ASA(FM&C) to ensure that installation personnel receive the needed guidance, training,
and oversight.

ACSIM has also made several IFS system changes designed to capture the data needed to
comply with data requirements outlined in documents issued by the Deputy Under
Secretary of Defense (Installations and Environment). The documents identified new DoD
real property inventory requirements and real property acceptance requirements. The IFS
changes will allow the Army to establish a Real Property Unique Identifier for each real
property asset and allow for more accurate financial reporting and accountability.

Conclusion
The Army did not have effective internal controls in place and operating to provide
reasonable assurance that AWCF installations managed their real property assets effectively
and efficiently, complied with DoD and Army policies and regulations, and accurately
reported assets in the financial statements. Weaknesses in the real property control
environment and in the risk assessment and monitoring processes contributed to
weaknesses in the control activities implemented at the installation level. For example,
IMCOM and AMC did not clearly define their respective areas of authority and delegate




11
  See Finding A in DoD Inspector General Report No. D-2008-072, “Controls Over Army Real Property
Financial Reporting,” March 28, 2008, for additional details on what DoD needs to do to replace the
preponderance-of-use policy with a costing methodology for assigning costs to the real property users.


                                                    20
responsibility accordingly throughout their organizations for managing real property assets.
As a result, IMCOM and AMC had insufficient oversight and monitoring of control
activities at the installation level.

The long-standing material internal control weaknesses that we identify in this report
resulted in inaccurate real property accountability and financial system records. Despite
some efforts to address these weaknesses, the Army and AWCF installations have not taken
appropriate actions to fully implement DoD real property management requirements. The
installation reviews that the Army plans to perform using the guidance in the Real Property
Audit Preparation Handbook should address the specific internal control weaknesses we
identified in this report. In addition, the Army needs to appoint and train the appropriate
personnel on the proper procedures for administering and managing real property, make
needed system changes, and assess and report the risks associated with managing and
reporting real property. The Deputy Under Secretary of Defense (Installations and
Environment) should enforce policy in DoD Instruction 4165.14, which requires the
assignment of real property accountability responsibilities at each DoD installation to a
single Military Department and the appointment of one RPAO at each installation.

Management Comments on the Finding and Our
Response
Deputy Under Secretary of Defense (Installations and
Environment) Comments
The Deputy Under Secretary of Defense (Installations and Environment) provided
comments on the finding conclusion, stating that it did not include specific reference to
policy and did not specify that his office is not responsible for appointing RPAOs. For
complete comments, see the Management Comments section.

Our Response
Based on the comments received, we have revised the report to include the applicable DoD
policy and to clarify who was responsible for appointing RPAOs.




                                             21
Recommendations, Management Comments, and Our
Response
Revised Recommendation. Based on comments from the Deputy Under Secretary of
Defense (Installations and Environment), we revised Recommendation A.1. in the final
report to include specific reference to the applicable DoD policy.

A.1. We recommend that the Deputy Under Secretary of Defense (Installations and
Environment) enforce the policy contained in DoD Instruction 4165.14 for the
Military Departments to assign real property accountability responsibilities at each
DoD installation to a single Military Department and appoint a single Real Property
Accountable Officer for each installation.


Deputy Under Secretary of Defense (Installations and
Environment) Comments
The Deputy Under Secretary of Defense (Installations and Environment) agreed with the
intent of the recommendation. He stated that he requested a briefing from the Services on
the status of implementing the policy in DoD Instruction 4165.14. He also requested that
we revise the recommendation to specify DoD Instruction 4165.14 and clarify who is
responsible for appointing the RPAOs.


Our Response
The comments from the Deputy Under Secretary of Defense (Installations and
Environment are partially responsive. We revised the recommendation to identify the
applicable DoD policy. However, the Deputy Under Secretary of Defense did not clearly
identify the actions his office would take to provide assurance that the Military
Departments have met the requirement for each DoD installation to have only a single
Military Department responsible for performing the real property accountability functions
and that the assigned Military Department has appointed a single real property officer to
accomplish this function. We request that the Deputy Under Secretary of Defense
provide additional comments in response to the final report.

A.2. We recommend that the U.S. Army Assistant Chief of Staff for Installation
Management take steps to develop an effective control environment over Army
Working Capital Fund real property. These steps should include working with the
U.S. Army Installation Management Command and U.S. Army Materiel Command
to:

      a. Assess management responsibilities for administering the real property
programs at Army Working Capital Fund installations. Either transfer full
responsibility for real property management to the Installation Management



                                           22
 Command or develop a memorandum of agreement between the Army commands
that defines each command’s roles and responsibilities for managing the real
property program at these installations.

      b. Evaluate the requirements for the appointment and organizational
placement of installation Real Property Accountable Officers, appoint individuals
whose primary responsibilities are to administer real property, and provide the
needed resources to support these requirements.

       c. Develop an effective monitoring program for real property management
that will ensure compliance with laws and regulations and provide periodic
evaluations of how effectively Army Working Capital Fund installations manage
real property.


Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations), providing comments
for the offices of the ASA(FM&C) and the ACSIM, agreed with the recommendation.
The Deputy Assistant Secretary stated that the Army is conducting a mission analysis
regarding reassigning installation support functions at the AMC installations to the
IMCOM. He expects the final decision in FY 2009. He also stated that the Army is
conducting a survey to evaluate how it has implemented Army policy on appointing
RPAOs. In addition, the Deputy Assistant Secretary stated that the Army performs
quarterly quality assurance and quality control reviews of real property data and sends the
results to the accountable Army components for evaluation and correction. The Army
takes into consideration the review results when evaluating training and policy guidance.

Our Response
Management comments on Recommendation A.2.a. are responsive. However, the Army
was not fully responsive to the intent of Recommendations A.2.b. and A.2.c. After
ensuring that it has appointed the appropriate individuals as RPAOs, the Army must
ensure that it gives each installation the resources needed to support its real property
management requirements. For example, developing an effective control environment
includes requiring installation personnel to have the proper skills and duty assignments to
perform the function. To accomplish this, the Army must ensure the assignment of
sufficient personnel at each installation to manage effectively the installations’ real
property assets. We request that ACSIM provide additional comments on
Recommendation A.2.b. in response to the final report. We request that the comments
include the Army’s completed or planned actions for ensuring that installations appoint
RPAOs at the correct level of the organization whose primary responsibilities are real
property management, and for providing installations the resources they need.

ACSIM personnel have been performing quarterly quality reviews of IFS data based on
problem areas brought to ACSIM’s attention. These actions are commendable and help
to detect existing IFS data anomalies and assess problems that are common among


                                            23
installations. However, the Army needs to implement additional monitoring measures to
address the control weaknesses in the finding. The intent of Recommendation A.2.c. is
for the Army to develop additional monitoring processes at all levels of the organization.
This would include internal reviews by installation managers, as well as external
monitoring by the installations’ higher-level commands. Monitoring should include
using IMCOM regional offices to conduct periodic comparisons of the data recorded in
the systems against the documentation maintained by the RPAO for compliance with
Army real property policy. We request that ACSIM provide additional comments on
Recommendation A.2.c. in response to the final report.

A.3. We recommend that the U.S. Army Assistant Chief of Staff for Installation
Management, in conjunction with the U.S. Army Corps of Engineers, develop a
training program for all personnel involved in real property management that
includes mandatory basic training within the first year of assignment and a track
for continuing professional education through the Installation Management
Institute.


Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations) provided comments
for the offices of the ASA(FM&C) and ACSIM. The Deputy Assistant Secretary agreed
with the recommendation, stating that ACSIM and USACE are conducting a survey of all
RPAOs in order to determine the current level of training and future training
requirements. He also stated that within the next 2 years, USACE, in conjunction with
ACSIM and other Army components, will develop and implement a training plan for all
real property personnel.

U.S. Army Corps of Engineers Comments
The Acting Chief, Audit Executive, Headquarters Internal Review Office provided
comments for the Commander, USACE. The Acting Chief agreed and stated that
USACE will work with ACSIM to develop or enhance a training program for all involved
in real property management. The estimated completion date is September 30, 2009.

Our Response
The management comments are responsive, and no additional comments are required.

A.4. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller), in conjunction with the U.S. Army Assistant Chief
of Staff for Installation Management:

       a. Implement the $20,000 DoD capitalization threshold for all real property
placed in service since March 2006.

       b. Update process narratives and flowcharts submitted to comply with
Office of Management and Budget Circular No. A-123, Appendix A, to portray the


                                            24
transaction flows of real property acquisition, improvement, and deletion
transactions accurately and show how the Army reports real property assets to the
appropriate DoD Component financial statements. Also, update risk analysis forms
and establish internal controls designed to mitigate all 24 of the risks that Army has
identified as being associated with managing real property assets.

       c. Implement within the Integrated Facilities System the security roles
needed to maintain proper segregation of duties between accountability and
financial management functions and to ensure that no single individual controls all
aspects of real property transactions.

        d. Finalize the Real Property Audit Preparation Handbook and ensure that
it:

               (1) identifies the Army-wide steps and testing measures that
installations must take to implement the requirements of Office of Management and
Budget Circular No. A-123, Appendix A;

             (2) incorporates control procedures that implement the DoD Business
Enterprise Architecture, including the use of Real Property Unique Identifier Codes
and imputed costing procedures;

              (3) requires the Real Property Accountable Officers and Resource
Management to update information in property accountability and accounting
systems based on the results of the 100-percent physical inventories of Army real
property assets that are to take place at Army installations; and

           (4) requires the Real Property Accountable Officers and Resource
Management to verify property accountability and financial records are complete.

       e. Correct errors in the recording and reporting of real property assets that
we discuss in this audit, as part of the Army installation reviews.


Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations) provided comments
for the offices of the ASA(FM&C) and ACSIM. The Deputy Assistant Secretary agreed
with Recommendations A.4.a. through A.4.e. Specifically, he stated the following.

        a. The Army implemented the $20,000 capitalization threshold on October 1,
2008.

       b. The Army is using Office of Secretary of Defense Services-developed process
models as place holders for the Army real property flow charts. Work groups are
evaluating the process models to identify where the Army deviates from them. The work


                                          25
groups will compare the Army models to the business process in the General Fund
Enterprise Business System and update the risk analysis forms and internal controls
accordingly.

        c. The Army is assessing the feasibility of modifying security roles as
recommended, taking into consideration its plans to implement the General Fund
Enterprise Business System. The Army expects to make the recommended changes to
security roles by the end of FY 2010.

       d. The Army was waiting for DoD Office of Inspector General comments before
completing the Army Real Property Audit Preparation Handbook. The Army will
consider all A.4.d. recommendations.

              (1) The Army will update the Handbook to include testing measures for
compliance with OMB Circular No. A-123, Appendix A.

                (2) The Army has implemented Real Property Unique Identification
functionality in all legacy source systems, as well as in the DoD Business Enterprise
Architecture.

               (3) The Army is continuing its 100-percent inventory validation process.

               (4) Installation commanders provide two certification letters during the
inventory validation process. They provide a certification letter when the installation
resolves discrepancies found during the inventory validation assistance visit and another
when the installation completes all property documentation files.

        e. The Army will correct the errors in recording and reporting real property assets
identified in this audit report during its audit preparation and review efforts.

Our Response
The Deputy Assistant Secretary’s comments are partially responsive. The Deputy
Assistant Secretary’s comments on Recommendation A.4.a. did not state whether the
Army capitalized all real property acquisition and improvement transactions that occurred
from March 2006 through September 2008 using the $20,000 capitalization threshold. If
it did not apply the lower threshold retroactively to March 2006, the Army will not
comply with DoD policy. In addition, real property will continue to be understated in the
Army’s financial statements.

The Deputy Assistant Secretary’s comments to Recommendation A.4.b. are partially
responsive. He outlines planned actions to evaluate the Army’s current real property
processes against a model, identify areas to improve the submission, and update the risk
analysis forms and internal controls. However, the Army’s annual OMB Circular
No. A-123, Appendix A submission must report process narratives and flowcharts of the
current real property process in place during the reporting period and identify what
controls exist to mitigate the identified risks. As the Army implements the new General


                                            26
Fund Enterprise Business System capabilities, we would expect to see the changes
described by the Deputy Assistant Secretary reflected in future Army submissions. It is
not clear from management’s comments how the Army plans to comply with OMB
Circular No. A-123 reporting requirements before FY 2012.

The Deputy Assistant Secretary’s comments on Recommendation A.4.c. are responsive
and meet the intent of the recommendation.

The Deputy Assistant Secretary’s comments on Recommendation A.4.d. are partially
responsive. The Deputy Assistant Secretary did not address all parts of Recommendation
A.4.d.(2). In addition to incorporating procedures implementing the DoD Business
Enterprise Architecture and the Real Property Unique Identifier, the recommendation
also identified imputed costing procedures as a necessary part of the Real Property Audit
Preparation Handbook. The ASA(FM&C) needs to address how the Army will ensure
that the handbook includes the procedures that installation personnel must perform to
correctly value real property assets, allocate their costs to the correct entity (based on
imputed costing accounting standards), and maintain accurate financial records. The
Deputy Assistant Secretary’s comments also did not fully respond to Recommendation
A.4.d.(4). The recommendation calls for the installation RPAOs and Resource
Management personnel to verify that both the property accountability records (in IFS)
and the financial records (in Standard Industrial Fund System or Logistics Modernization
Program system) are complete and accurate. As we discussed in the finding, installation
real property personnel did not reconcile the property accountability and financial
records. Although the handbook requires installation commanders to issue two
certification letters, it does not include this important step in its procedures. Installations
must reconcile accountability and financial records in order to identify all discrepancies
and provide a sound basis for installation commanders to certify reliably that their real
property records are complete and accurate.

The Deputy Assistant Secretary’s comments on Recommendation A.4.e. are responsive
and meet the intent of the recommendation.

We request that the Assistant Secretary of the Army (Financial Management and
Comptroller) provide additional comments to Recommendations A.4.a., A.4.b., and
A.4.d. in response to the final report.

A.5. We recommend that the U.S. Army Assistant Chief of Staff for Installation
Management develop the necessary system changes within the Integrated Facilities
System to:

       a. Create new transaction type codes for recording transactions that do not
meet the capitalization threshold but must be recorded for real property
accountability purposes and to make administrative changes to existing records.
Capitalization records within the system should reflect only those acquisitions and
improvements to real property that meet the DoD capitalization criteria.




                                              27
        b. Require system administrators to assign user roles to all current and
future users. The system security coordinator should restrict the capabilities and
access permission for each user role and ensure that any default or locally developed
roles allow only “Read Only” access.

       c. Ensure that financial data can only be updated by system integration with
an accounting system or through assignment of a user role, allowing only resource
management personnel the authority to establish and update real property
information in the Integrated Facilities System (such as acquisition cost, useful life,
and placed-in-service date).


Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations), providing comments
for the offices of the ASA(FM&C) and ACSIM, agreed with the recommendation. The
Deputy Assistant Secretary stated that:

       a. The Army will implement new transaction codes after vetting the changes
through DoD, because they affect the Business Enterprise Architecture. The Army has
implemented other data elements to help ensure that transactions are recorded correctly.

        b. The Army will implement a role-assignment process and modify its security
roles to make “Read Only” the default. Expected completion is the end of FY 2010. The
Army will assess the feasibility of modifying IFS security roles in light of the General
Fund Enterprise Business System deployment.

        c. In conjunction with modifying the security role function, the Army will create
roles in the General Fund Enterprise Business System for processing real property
financial data.

Our Response
The management comments are responsive, and no additional comments are required.




                                           28
Finding B. Compliance With Real Property
Source Documentation Requirements
The Army has not enforced FMR requirements for AWCF installations to obtain and
retain the source documentation necessary to support financial transactions affecting real
property assets. As a result, the Army has made limited progress in establishing auditable
account balances for AWCF real property assets. However, the Army’s recent
development and initial implementation of its Real Property Audit Preparation Handbook
provide a viable framework for addressing long-standing documentation issues. The
ASA(FM&C), in conjunction with ACSIM, should:

          finalize plans for performing validations of real property assets at Army
           Working Capital Fund installations,

          develop a plan detailing the actions that the quality review team will take to
           ensure that Army installations establish the internal controls and sustainable
           business practices necessary to sustain the baseline achieved, and

          coordinate with the Business Transformation Agency to develop and implement
           electronic folder requirements for all real property assets.

Real Property Documentation Requirements
Statement of Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting for
Property, Plant, and Equipment,” June 1996, provides accounting standards for federally
owned General PP&E. SFFAS No. 6 requires entities to record all costs incurred to bring
an asset to a form and location suitable for its intended use. The FMR, volume 4,
chapter 6, implements SFFAS No. 6 and requires that DoD Components retain the source
documents needed to support all financial transactions affecting their investment in real
property. The FMR also identifies the minimum documentation and retention
requirements for real property transactions. The source documents should permit entities
to validate information recorded in the financial and accountability systems, such as
acquisition cost, placed-in-service date, and disposal actions. The FMR further requires
real property managers to obtain and maintain source documents, either hard copy or an
electronic version, in a readily available location for the useful life of a real property asset
and for 10 years after its disposal date. 12 See Appendix C for additional details on
minimum documentation requirements for real property.

In June 2006, the Army requested approval from the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer to use three proposed methods—plant


12
  The FMR does not define “readily available.” The DoD Real Property Acceptance Requirements and
Unified Facilities Criteria 1-300-08 require that the construction agent provide real property supporting
documentation, at the time the organization accepts the asset into the DoD real property inventory.



                                                    29
replacement value, engineering cost estimates, and comparable assets with auditable
source documents—to estimate the value of its real property assets when source
documents no longer existed. On October 2, 2006, the Acting Deputy Chief Financial
Officer agreed that the Army’s proposed methods provided a sound and defensible
approach for providing auditable data compliant with appropriate accounting standards. 13
However, he stated that the Army must first establish the internal controls and sustainable
business practices necessary to ensure the sustainment of any baseline achieved using this
methodology.

UFC 1-300-08 serves as a detailed reference for when and how to use DD Form 1354 for
acquisition, improvement, and transfer transactions, as well as for changes to existing real
property records. UFC 1-300-08 provides standards for completing and accepting
DD Form 1354, including the required source documents needed to support the
transactions.

Army Real Property Source Documentation Records
The Army has not maintained adequate source documentation to support the value of
AWCF real property assets reported on its financial statements as of September 30, 2007
($2 billion in acquisition value and $497 million in net book value). In 1998, the Army
determined that it had not retained the documentation needed to support the real property
account balances recorded in its financial systems. Since then, the Army has attempted to
implement procedures for developing a sustainable business process to retain the source
documentation needed to support the acquisition cost of Army real property assets
reported in its AWCF and Army General Fund financial statements. However, the Army
has made only limited progress in establishing auditable account balances in the past
10 years.

In its FY 2007 Annual Statement of Assurance, the Army reported its inability to provide
the source documentation needed to support the acquisition value of its General PP&E as
a material weakness and acknowledged that the absence of source documentation
prevented it from having reliable financial statements. The Army also reported that
information on the acquisition dates and cost of AWCF General PP&E was not always
available and sometimes recorded incorrectly. The Army’s development and initial
implementation of its Real Property Audit Preparation Handbook provides a viable
framework for addressing these long-standing documentation issues. The Army
estimates that in FY 2010 it will be able to assert that it has corrected its material internal
weaknesses and established sustainable business practices for recording and reporting
General PP&E, including AWCF real property assets. However, the Army needs to
define its plans for completing reviews at AWCF installations and the actions the quality
review teams will take to ensure that Army installations establish appropriate internal


13
  Effective with periods ending after September 30, 1997, SFFAS No. 6 required that entities provide an
estimate of the historical cost of existing General PP&E when they have not maintained the necessary
source documents. The entity could base the estimate on either the cost of similar assets at the time of
acquisition or the current cost of similar assets discounted for inflation.



                                                   30
controls and sustainable business practices. In addition, the Army needs to work with the
Business Transformation Agency to develop a reliable electronic retrieval process for
maintaining real property documentation.

Sustainable Business Practice
Our review of selected financial transactions affecting real property assets that occurred
from October 1, 2002, through September 30, 2006, at four AWCF installations showed
that the Army had not established the controls needed to achieve sustainable business
practices for supporting real property transactions. We judgmentally selected
140 acquisition, improvement, and disposal transactions to determine whether the
installations had retained the required source documentation in real property files as
required by FMR, volume 4, chapter 6. Because of established documentation retention
requirements, we expected that the RPAOs would have the required information on file
or readily available to support any real property transactions occurring in that time
frame. 14 If the documentation was available, we then tested whether the source
documents supported selected IFS information (acquisition or improvement cost, asset
type, placed-in-service date and/or disposal date, and useful life). We determined that for
112 of the 140 transactions we reviewed (80 percent 15 ), RPAOs did not retain the
minimum source documentation within the installation real property files to support the
IFS transaction data. The installation real property files usually contained only a
DD Form 1354 related to the acquisition, improvement, or disposal transactions, but not
the additional source documentation necessary to support the transactions. Table 3
summarizes our analysis of documentation files by installation for the 140 transactions.

                      Table 3. Availability of Supporting Documentation
                                                                          Number of         Percentage
                                     Type of          Number of            Files Not           Not
            Installation           Transaction      Files Reviewed        Supported         Supported
                                  Acquisition                  10                 9               90
     Anniston Army Depot          Improvement                  10                 9               90
                                  Disposal                      3                 3              100
                                  Acquisition                   8                 4               50
     Rock Island Arsenal          Improvement                  25                24               96
                                  Disposal                     20                15               75
                                  Acquisition                  12                11               92
     Tobyhanna Army Depot         Improvement                  25                18               72
                                  Disposal                     25                17               68
                                  Acquisition                   1                 1              100
     Corpus Christi Army Depot
                                  Improvement                   1                 1              100




14
   National Archives and Records Administration requires the retention of procurement and payment
documents for 6 years and 3 months after the final payment on a contract. Therefore, we anticipated that
any asset placed in service since October 1, 2002, would still have documentation readily available for our
review until at least January 1, 2009.
15
   Judgment sample percentage does not generalize to universe.


                                                    31
Supporting Documentation
UFC 1-300-08 states that when assets under construction become available for use and
are transferred to the RPAO, the construction agent should provide a DD Form 1354
itemizing each asset transferred and all pertinent source documents supporting the total
cost and other data recorded on the DD Form 1354. USACE constructs the majority of
the AWCF assets. For each constructed asset, USACE records the cost data into a
construction-in-progress account in the Corps of Engineers Financial Management
System and is to either provide the supporting documentation to the RPAO or maintain
the documentation in its files. As we reported in DoD Inspector General Report No.
D-2008-072, “Controls Over Army Real Property Financial Reporting,” March 28, 2008,
system integration issues prevented any direct transfer of source data and documentation
between the Corps of Engineers Financial Management System and the AWCF
accountability and financial systems. Consequently, AWCF installations relied on
USACE district offices to either provide or maintain all the contractual, financial, and
other source documents to support the acquisition or improvement of real property.
However, USACE district offices were neither consistent in the amount of supporting
documentation they forwarded to AWCF installations nor able to readily provide the
supporting documentation.

Support for Acquisitions and Improvements
Of the 92 transactions that IFS classified as an acquisition or improvement,
documentation for 77 transactions did not contain sufficient support for the acquisition or
improvement costs and dates recorded in IFS. Most installation RPAOs did not have any
source documentation other than the DD Form 1354. The RPAOs told us that USACE or
another organization had the other source documentation. However, the RPAOs were not
able to obtain the missing documentation. For instance, the USACE Huntsville District,
Alabama, provided construction-in-progress cost reports to RPAOs to substantiate the
total costs recorded on the DD Form 1354 but did not provide any of the final invoices or
other documents supporting those costs or the asset completion dates. The USACE
Rock Island District, Illinois, did not provide the Rock Island Garrison RPAO with any
financial or contractual documents that supported the DD Form 1354s. The USACE
districts we contacted often were not able to retrieve source documents to validate the
acquisition or improvement costs of the assets or the key dates recorded in IFS.

Property managers had very little or no documentation to support changes to the placed-
in-service dates and the acquisition or improvement costs recorded when they updated
IFS records for real property assets found during routine physical inventories. Real
property files did not contain the documents we expected to find to support the IFS
transaction data. For instance, at Tobyhanna Army Depot the RPAO added seven assets
to IFS following physical inventories in 2002 and 2004. The RPAO had no
documentation on file to show the basis for the placed-in-service dates or estimated
acquisition costs recorded in IFS. At three of the four AWCF installations we tested, the
RPAOs and real property specialists stated that they were not aware of documentation
requirements for assets they found on site. The FMR requires that when a property




                                            32
manager finds an asset on site for which it does not have original source documentation,
the property manager should estimate the asset value using approved estimation methods
and maintain documentation supporting the estimated value.

Support for Disposals
At the three AWCF installations, we examined disposal documentation and determined
that the RPAOs could not demonstrate that they had correctly documented the request for
disposal for 35 of 48 real property assets from October 1, 2001, through September 30,
2006. The RPAOs did not retain a completed DA Form 337, “Request for Approval of
Disposal of Building and Improvement,” that showed the date they determined each asset
to be excess and the date the installation commander granted approval to initiate disposal.
The RPAOs also did not always document the date and manner of final disposal. In
addition, the real property files did not contain contract information or other evidence that
the demolition had actually occurred, and there was inadequate documentation to support
the IFS disposal dates. When the RPAOs could not locate an asset during the physical
inventory process, they recorded an IFS disposal transaction in order to remove the asset
from their records. However, the property files usually contained no supporting
documentation other than a DD Form 1354 signed by the RPAO.

Other Documentation Issues
IFS real property records contained multiple assets of similar construction with generic
descriptions that prevented property managers and other individuals from quickly
identifying or locating an asset. The real property files at the five AWCF installations we
visited generally did not contain sufficient information to distinguish one asset from
another or to pinpoint the exact location of each asset. For instance, two of the five
AWCF installations we visited contained hundreds of nearly identical ammunition
storage magazines that were distinguishable in the property listings only by their facility
number. However, the facility number alone was not sufficient to locate the asset. At
those two installations, we found that the storage magazines were widely dispersed and
property managers had difficulty locating a specific one when requested. Similarly, when
we asked to see a specific parking lot, playground, or baseball field from one
installation’s inventory report, the property manager sometimes had difficulty identifying
the specific structure. The lack of a reference document or photograph in the real
property file made it difficult for the RPAO to pinpoint the exact location of each asset or
identify distinguishing characteristics. Anniston Army Depot had photographs on file for
some of its buildings, which the property office found beneficial when identifying those
assets. Installations could have also used additional tools such as global positioning
satellite technology or photographs to assist property managers in identifying and
pinpointing the exact location of every asset.

Real Property Audit Preparation Handbook
The Army’s Real Property Audit Preparation Handbook addresses many of the
previously identified problems in supporting financial transactions affecting real property
assets. The handbook instructs Army installation personnel on how to confirm the
existence of real property assets, verify the completeness of real property databases, and
develop standardized source document files. The handbook establishes the guidelines for


                                             33
implementing sustainable business practices at Army installations, which should
eventually allow the Army to assert that the real property account balance is ready for
audit. However, the Army needs to detail its plans for completing reviews at AWCF
installations and the actions quality review teams will take to ensure that Army
installations establish appropriate internal controls and sustainable business practices. In
addition, the Army needs to work with the Business Transformation Agency to develop a
reliable electronic retrieval process for maintaining real property documentation.

The Real Property Validation Process
The handbook requires that Army installations conduct a one-time physical inventory in
order to reconcile what is physically located at the installation with the IFS inventory
database. Once this inventory is complete, the handbook then requires the installation to
identify what source documentation exists for each individual asset, obtain missing
documents or follow alternate estimation procedures, and establish a folder for each asset
that contains all relevant source documents. The handbook also addresses incorporating
global positioning satellite data or photographs into the files to enable the RPAOs and
other interested parties to identify and pinpoint the exact location of every asset. Review
teams comprised of representatives of the Offices of the ASA(FM&C), ACSIM, and the
Deputy Chief of Staff for Logistics (Army G-4) will provide guidance and initial training
to installation personnel and perform interim reviews of project execution data and
supporting documentation. The handbook also directs that installation personnel
accurately describe and document acquisition, improvement, and disposal transactions in
the database after the initial validation.

Uniform Date for Beginning Account Balances
The Army’s handbook does not establish a uniform date beyond which all installations
must comply with the source documentation requirements contained in the FMR, volume
4, chapter 6. Instead, the handbook addresses achieving supportable account balances
and sustainable business practices at individual Army installations after the RPAO
completes a physical inventory of all real property assets. The installation also has to
ensure that every asset in the inventory has a folder containing historical source
documents or other acceptable forms of supporting documentation. This methodology
would have been unconventional, but workable, if the Army had first established
sustainable business practices at installations. However, the Army had not identified or
sufficiently detailed all the business practices needed to develop auditable real property
account balances or its plans for completing reviews at AWCF installations. The Army
also had not ensured that each installation established and would maintain appropriate
internal controls and sustainable business practices.

Once all Army installations achieve supportable account balances and sustainable
business practices, the Army will be in a position to assert as to its readiness for an audit
of the real property account balances reported on its Army General Fund and AWCF
financial statements. The Army should consider the ability of its installations to comply
with supporting documentation retention requirements and sustain beginning account
balances, once established, before it asserts that its real property account balance is
audit-ready. As of August 31, 2008, the Army had completed validations of real property


                                             34
assets at seven Army General Fund installations, and validations at an additional seven
installations were 50-percent complete. The Army started validating real property assets
at the first AWCF installation in December 2008, and plans to complete all of the AWCF
installations by the end of FY 2009. To meet its aggressive plan for completing all real
property validations by September 30, 2009, Army managers will need to ensure that
they commit the necessary resources. Until the Army completes reviews at all AWCF
installations, it will not have reliable beginning account balances for real property assets
or internal controls and sustainable business practices for adhering to the minimum
documentation and retention requirements for real property transactions.

Obtaining a Sustainable Business Practices
The handbook does not identify or sufficiently detail all the business processes needed to
develop auditable account balances for real property assets. As explained in Finding A,
we identified internal control deficiencies in several areas, including classification and
financial reporting of assets, segregation of duties, and implementation of the
capitalization threshold. The handbook does not adequately address which entity or
installation should financially report each asset and how the Army will ensure that it
reports each asset on the correct financial statement. The handbook should also identify
what control activities the installations will implement and how they should monitor and
test them. In addition, the business processes in the handbook are not specific about
which entity or installation will maintain source documentation and how and where they
will maintain it.

The Army must address each of these concerns about the handbook. In addition,
although the handbook requires that Army installation personnel reconcile the results of
physical inventories with the IFS databases, it does not require that the results be
reconciled with financial records. Once the Army establishes effective business practices
at the installations, installation personnel will need to sustain those practices. The Army
must also establish business practices that are consistent throughout the Army, and not
unique to individual installations.

Quality Reviews
The handbook states that once the installation commander provides ASA(FM&C) with a
certification memorandum stating that audit preparation activities are complete,
representatives from ASA(FM&C) and ACSIM, along with U.S. Army Audit Agency,
will perform a quality review at the installation. The purpose of the review is to ensure
that the installation has accurately documented and reported assets in the real property
database and supported them with sufficient source documentation. However, the
handbook does not explain the actions the quality review team will take to ensure that the
Army installation has established appropriate internal controls and business practices
necessary to sustain the baseline achieved using this methodology. The ASA(FM&C)
and ACSIM should develop a plan outlining the actions a team should take to ensure that
Army installations establish appropriate internal controls and business practices
necessary to sustain a baseline. The quality review teams should give special attention to
installations that implement the procedures in the handbook without the benefit of on-site



                                             35
project assistance teams. Once the Army establishes and tests its internal controls and
business practices, the practices should become part of the requirements for compliance
with OMB Circular No. A-123, Appendix A.

Filing Source Documents
The handbook requires installation personnel to maintain source documents supporting
the acquisition, improvement, and disposal of real property assets in file folders;
however, opportunities exist to file source documents electronically so that they can be
readily available for review and audit purposes. A significant portion of the real property
asset supporting documentation has been in electronic format since at least 2002.
Technological improvements, such as the Electronic Document Access and Defense
Finance and Accounting Service Electronic Data Management systems, have made the
storage and retrieval of source documents practical and efficient. Army installations
should retrieve source documents from the electronic storage systems and maintain an
electronic folder for each real property asset. Army installation personnel could scan any
remaining hard-copy documents and provide them to the RPAO to add to the electronic
folder. This would allow RPAOs to assemble and manage source documents in a single,
central, real property file for the life of the asset, plus 10 years. As we stated, RPAOs
were not centrally controlling and retaining source documents. Instead, they retained
little more than the DD Form 1354, leaving the remaining documentation in the custody
of the organizations that originated them.

In addition, the RPAO did not reference hard-copy documents and electronic records held
outside the control of the Army installation to the associated real property asset, and the
outside activity did not always retain documentation for the life of each asset. As part of
its handbook effort, the Army should take proactive measures to develop a reliable
electronic storage and retrieval process for maintaining real property documentation. The
Army should coordinate with the Business Transformation Agency and determine how to
use the requirements outlined in the DoD Real Property Acceptance Requirements
document to retain source data electronically. The Army should develop integrated and
retrievable electronic folders using the asset’s Real Property Unique Identifier and
include global positioning satellite coordinates or photographs that identify the asset.

Conclusion
The Army is working toward implementing sustainable business practices and internal
controls at Army installations to address long-standing problems with obtaining real
property transaction supporting documentation and retaining it in a readily available
location for the required retention period. During FY 2009, the Army plans to institute
handbook guidance to establish real property controls and practices at all Army
installations, including its 13 AWCF installations. The Real Property Audit Preparation
Handbook addresses many of the previously identified problems in supporting financial
transactions affecting real property assets. The handbook instructs Army installation
personnel on how to confirm the existence of real property assets, verify the
completeness of real property databases, and develop standardized source document files.
However, the Army needs to define its plans for completing reviews at AWCF
installations and the actions the quality review teams will take to ensure that Army


                                            36
installations establish appropriate internal controls and sustainable business practices. In
addition, the Army should work with the Business Transformation Agency to develop a
reliable electronic storage and retrieval process for maintaining real property
documentation. The ability of installation personnel to sustain effective business
practices for AWCF real property assets will be essential to producing accurate, reliable,
and timely information in support of the installation and for the auditability of the
General PP&E line item.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller), in conjunction with the U.S. Army Assistant Chief
of Staff for Installation Management:

     1. Finalize plans for performing validations of real property assets at Army
Working Capital Fund installations.


Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations), providing comments
for the offices of the ASA(FM&C) and ACSIM, agreed with the recommendation. The
Deputy Assistant Secretary stated that the offices will develop the plan to validate that all
installations complete the requirements of the Army Real Property Audit Preparation
Handbook and track corrective actions related to the validations.


Our Response
The management comments are responsive, and no additional comments are required.

       2. Develop a plan detailing the actions that the quality review team will take
to ensure that Army installations establish the internal controls and business
practices necessary to sustain the baselines achieved.


Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations) provided comments
for the offices of the ASA(FM&C) and ACSIM. The Deputy Assistant Secretary agreed
with the recommendation, stating that the plan will include specific review team actions
for verifying that installations have correctly completed the physical inventory,
established the supporting documentation files, and financially recorded transactions for
the changes made.



                                             37
Our Response
The management comments are partially responsive. The comments address the intent of
Recommendation B.2.; however, the Army must develop steps within the handbook to
ensure that after an installation has completed the initial inventory and established the
documentation files that the installation has implemented a sustainable business process
for maintaining the real property financial reporting and accountability baseline. We
request that the Assistant Secretary of the Army (Financial Management and
Comptroller) reconsider his response to Recommendation B.2. and provide his plans for
ensuring that each installation has implemented sustainable business processes for
correctly reporting all future real property transactions.

       3. Coordinate with the Business Transformation Agency to develop and
implement electronic folder requirements for all real property assets. Each folder
should be integrated and retrievable by Real Property Unique Identifier and include
global positioning satellite coordinates or photographic evidence to identify the
asset.


Assistant Secretary of the Army Comments
The Deputy Assistant Secretary of the Army (Financial Operations) provided comments
for the offices of the ASA(FM&C) and ACSIM. The Deputy Assistant Secretary agreed
with the recommendation, stating that the Army supports using electronic folders and will
participate in any efforts the Business Transformation Agency may conduct to implement
electronic data storage. He also stated that we should raise the issue to the Office of
Secretary of Defense to ensure that it gets the high-level attention it deserves.

Our Response
The Deputy Assistant Secretary’s comments are partially responsive. The Deputy
Assistant Secretary agreed that electronic folders are the best way forward for financial
reporting documentation. However, the Army did not indicate that it would take
proactive steps to initiate action with the Business Transformation Agency to develop and
implement folder requirements for Army real property assets. The Army has the
knowledge to outline the folder requirements, and the expertise to work with the Business
Transformation Agency to develop and implement these requirements. By working with
the Business Transformation Agency, the Army will help ensure that the need for
electronic folders for real property assets receives the attention it deserves. We request
that the Assistant Secretary of the Army (Financial Management and Comptroller)
reconsider his response to Recommendation B.3. and initiate action to request the
assistance of the Business Transformation Agency to develop and implement electronic
folder requirements for Army real property assets.




                                           38
Appendix A. Scope and Methodology
We conducted this performance audit from August 2006 through February 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We determined whether the controls over AWCF real property assets were in place and
provided reasonable assurance that the AWCF organizations had proper asset
management. We interviewed ACSIM real property and IFS system personnel to gain an
understanding of the real property process and IFS access and privileges requirements.
We also interviewed IMCOM and AMC facility management personnel to determine
their policies and procedures for managing real property. We reviewed accounting
standards and DoD guidance related to real property and compared it to policies and
procedures practiced at AWCF installations. We visited 5 of 13 AWCF installations
between October 2006 and February 2007 to review how real property personnel
recorded real property acquisition, improvement, and disposal transactions. We also
examined the installations’ real property files to determine whether real property
personnel retained required source documentation to support all real property
transactions. We visited the following AWCF installations during the dates specified
below.

               Rock Island Arsenal                      October 16-27, 2006

               Tobyhanna Army Depot                     December 11-15, 2006

               Anniston Army Depot                      February 12-15, 2007

               Corpus Christi Army Depot                February 12-16, 2007
               Crane Army Ammunition Activity           February 21-22, 2007


We obtained the September 30, 2006, database files from IFS and imported them into the
Audit Command Language software. Using Audit Command Language software, we
judgmentally selected real property assets at the five AWCF installations and traced the
real property transactions made from October 1, 2001, through September 30, 2006, from
IFS to the supporting documentation contained in the real property folders maintained for
each asset to determine whether the Army had recorded the real property data accurately,
with the required supporting source documents. When source documentation was not
available at the installation, we requested a copy from the office that originated the
document to determine its availability.

We also judgmentally selected assets at the five AWCF installations and performed
existence and completeness testing to determine whether assets recorded in IFS


                                           39
physically existed at the installations and assets physically located at the installations
were recorded accurately in IFS. We interviewed real property accountability, financial
reporting, and installation systems personnel to determine their roles and responsibilities
relating to real property. We obtained a report directly from IFS to determine whether
the access and privileges granted in IFS provided adequate segregation of duties at each
installation between the real property accountability and financial reporting personnel,
based on their roles and responsibilities.

Use of Computer-Processed Data
The Data Mining Directorate, Office of the Deputy Inspector General for Auditing,
conducted limited tests of reliability on data from IFS. The Data Mining Directorate
compared the files to the record layouts, compared file totals from ACSIM to the file
totals after importing them into the ACL software, and reviewed the data for valid entries.
We also relied on additional evidence to validate data integrity. We compared the IFS
data for the selected real property assets with physical documentation used to establish
the records. We identified discrepancies in the data when we compared the files. We
discussed these discrepancies and the related system control weaknesses in Findings A
and B. We determined that the data were sufficiently reliable for us to use in conjunction
with physical documentation to test controls over AWCF real property assets.

Use of Technical Assistance
A Data Mining Directorate Senior Auditor and Information Technology Specialist
imported the original files from IFS, DPAS, and the Defense Finance and Accounting
Service Corporate Database and Defense Finance and Accounting Service Corporate
Warehouse into the ACL software and conducted limited tests of reliability on the
computer-processed data.

Prior Coverage
During the last 5 years, GAO, DoD Inspector General (IG), and the U.S. Army Audit
Agency have issued five reports discussing the Army real property process. Unrestricted
GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-05-848T, “Further Actions Needed to Address Long-standing and
Complex Problems,” June 22, 2005

DoD IG
DoD IG Report No. D-2008-072, “Controls Over the Army Real Property Financial
Reporting,” March 28, 2008

DoD IG Report No. D-2006-072, “Internal Controls Related to Department of Defense
Real Property,” April 6, 2006




                                            40
Army
U.S. Army Audit Agency Report No. A-2006-0064-FFM, “Defense Property
Accountability System Material Weakness Closeout,” September 28, 2006

U.S. Army Audit Agency Report No. A-2006-0066-FFM, “Integrated Facilities System
Requirements Validation,” March 8, 2006




                                       41
Appendix B. Glossary of Terms
Accountability System. The accountability system maintains the real property inventory
information for Army buildings, structures, land, and utilities. The accountability system
serves as the basic source of acquisition and improvement information, such as a real
property asset’s category, status, cost, area, capacity, condition, and use.

Accumulated Depreciation. The amount of depreciation expense added over a period,
calculated from the date the asset is available for use.

Acquisition Value. All amounts incurred to bring the asset to a form and location
suitable for its intended use. Examples include amounts paid to vendors, transportation
charges, and handling and storage costs.

Assert. Management makes a statement or positive expression of its position or opinion.
Office of Management and Budget Circular No. A-123, Appendix A, requires agency's
management to include an assurance statement on the internal controls over financial
reporting in its annual Performance and Accountability Report. Management is required
to state a direct conclusion about whether the agency's internal controls over financial
reporting are effective.

Capital Improvement. The costs to improve a real property asset are capitalized when
they meet the DoD capitalization threshold and the improvement increases the asset’s
capability, size, efficiency, or useful life.

Construction-in-Progress. Construction-in-progress is the accumulation of costs of
construction for or by the sponsoring entity since project inception. It includes labor,
materials, and overhead costs associated with project design, site preparation, and actual
construction.

Directorate of Public Works. The directorate responsible for operations and
maintenance of facilities at Army installations, including minor construction. It is
responsible for real property management and planning.

Directorate of Resource Management. The directorate responsible for financial and
work force information at Army installations. It ensures that available resources are
planned, programmed, and optimally executed; prepares and disseminates funding policy
for all appropriations and funds; provides appropriation and revolving fund accounting
and reporting support; and manages and oversees development of standard automated
budget, financial, and manpower systems.

Financial Management System. The financial management system provides full
general ledger control over financial transactions and resource balances.




                                            42
Internal Control. An integral component of an organization’s management that
provides reasonable assurance of effective and efficient operations; reliable financial
reporting; and compliance with applicable laws and regulations. The Government
Accountability Office identifies the following five standards for internal control.

      Control Environment. The organizational structure and culture created by
       management and employees to sustain organizational support for internal control.

      Control Activities. The policies, procedures, and mechanisms in place to help
       ensure that agencies meet their objectives. Examples include segregation of
       duties, physical control over assets, proper authorization, and appropriate
       documentation and access to that documentation.

      Information and Communications. Information communicated to relevant
       personnel at all levels within an organization. The information should be
       relevant, reliable, and timely. An agency should also communicate with outside
       organizations.

      Monitoring. Monitoring assesses the effectiveness of internal control over time.
       It should occur during the normal course of operations. Periodic reviews,
       reconciliations, or comparisons of data should be a part of personnel’s regularly
       assigned duties. In addition, management should include periodic assessments as
       part of its continuous monitoring of internal control.

      Risk Assessment. The identification and analysis of relative risks associated with
       achieving an objective. Management should identify internal and external risks
       that may prevent the organization from meeting its objectives.

Outgrant. An outgrant is a legal document that grants the right to use Army-controlled
real property by setting the terms of non-Army use of Army-owned property. Outgrants
include leases, licenses, easements, and permits.

Leasehold Improvement. An improvement to a leased asset that increases its value.

Preponderant User Policy. As of FY 2006, DoD Financial Management Regulation
(FMR), volume 4, chapter 6, required the preponderant user of a real property asset to
report the total value of the asset and associated costs on its financial statements. When
there was more than one user, the user that had the greater percentage of usage normally
would be the preponderant user. The FMR applied the policy differently depending on
whether the preponderant user was a General Fund or Working Capital Fund entity. In
October 2008, DoD revised the FMR to specify the use of a new policy requiring
reporting entities that fund real property assets to report the assets and depreciation
expense on their financial statements. The policy also requires entities to record the
imputed costs of unreimbursed goods and services on their financial statement when they




                                            43
do not reimburse the provider for the facilities they occupy. However, DoD states that it
will not be able to implement the new policy until FY 2011. Therefore, the preponderant
user policy was not canceled by the October 2008 version of the FMR.

Real Property Accountable Officer. The individual appointed by the installation
commander to account for all real property on an installation.

Real Property Specialist. Individuals trained in the management of real property and
who perform the daily installation management functions.




                                           44
Appendix C. Real Property Documentation
Requirements
FMR, volume 4, chapter 6, requires DoD Components to maintain source documents to
support financial transaction entries in accounting system general ledger accounts and in
supporting subsidiary property accountability records and systems. The source
documents must support all transactions affecting the DoD Component’s investment in
General PP&E. The FMR also requires DoD Components to retain the documents in a
readily available location to permit the validation of information pertaining to the asset,
such as the purchase cost, purchase date, and cost of improvements. According to the
FMR and U.S. National Archives and Records Administration guidance, real property
managers are to maintain source documentation for 10 years after the asset’s disposal.

The FMR, volume 4, chapter 6, identifies the following source documents that DoD
Components are required to maintain.

For acquisitions and capital improvements:
    final bid document
    signed acceptance document by the Government
    contract or other legal instrument (such as a lease)
    contract modifications or change orders
    invoices to support the amount accumulated in the Construction-in-Progress
       account
    indirect costs incurred internally by the gaining activity
    DD Form 1391, “FY__ Military Construction Project Data” and work orders (to
       include the design cost during the planning phase)
    appraisal results or evidence of fair market value for donated assets
    transfer document for transferred assets
    DD Form 250, “Material Inspection and Receiving Report”
    DD Form 1354, “Interim and Final Transfer and Acceptance of Military Real
       Property”
    collection voucher

For disposals, including transfers to other organizations:
    declaration-of-excess document
    approval documentation
    original acquisition document
    legal instrument to indicate legal obligation to dispose of an asset
    document showing the disposal start date
    receipt documentation
    transfer document for transferred assets




                                            45
Department of the Army Comments




                  Click to add JPEG file




                                 46
Click to add JPEG file




               47
Click to add JPEG file




               48
Click to add JPEG file




               49
Deputy Under Secretary of Defense (Installations and
Environment) Comments




                    Click to add JPEG file




                                   50
                           Final Report
                            Reference




                         Revised




Click to add JPEG file   Revised to identify
                         that guidance was
                         updated on
                         March 26, 2009




                         Revised




                         Page 22




               51
                           Final Report
                            Reference




                         Revised




Click to add JPEG file




               52
Click to add JPEG file




               53
U.S. Army Corps of Engineers Comments

                                             Final Report
                                              Reference




                                           Page 24




                  Click to add JPEG file




                                 54
